    OFFICE OF INSPECTOR GENERAL




           INSPECTION OF THE
U.S. INTERNATIONAL TRADE COMMISSION'S
     OCCUPANT EMERGENCY PROGRAM

            Inspection Report
              OIG-IR-OI-03
Inspection of the U.S. International Trade Commission's                        Inspection Report
Occupant Emergency Program                                                        OIG-IR-OI-03


TABLE OF CONTENTS

I.        SUMMARY OF RESULTS                                                                         1

II.       BACKGROUND                                                                                 1

III.      OBJECTIVE, SCOPE, AND METHODOLOGY                                                          2

IV.       DETAILS OF RESULTS                                                                         2

          A.     The Commission Has Made Progress In Managing Emergencies                            2

          B.     An Official Building-wide OEP Is Needed                                             4
                   Suggestion 1                                                                      5

          C.     A Comprehensive OEP Is Needed                                                       5
                   Suggestion 2              :                                                       8
                   Suggestion 3                                                                      8

          D.     Command Center Policies And Procedures Should Be Strengthened
                 And Fonnalized                                                                      9
                   Suggestion 4                                                                      9

APPENDIX A - Occupant Emergency Procedures And Responsibilities For
             500 E Street SW, Washington, DC                                                        10

APPENDIX B - OIG Observations During The July 2002 Evacuation Drill At
             500 E Street SW, Washington, DC                                                        .12




                                                          Qffice of Inspector General
                                                              u.s. International Trade Commission
Inspection of the U.S. International Trade Commission's                     Inspection Report
Occupant Emergency Program                                                     OIG-IR-O1-03


I. SUMMARY OF RESULTS

Given the September 11, 2001 attacks and subsequent terrorist threats, emergency preparedness
remains critical to ensuring a safe environment in which federal employees and visitors can
conduct their business. The Office of Inspector General (OIG) conducted an inspection of the
U.S. International Trade Commission (USlTC/Commission) Occupant Emergency Program
(OEP) and found that the Commission actively has led emergency management at 500 E Street,
SW, Washington, DC l . However, we suggested additional actions to further safeguard lives and
property.

The Commission should develop an official building-wide Occupant Emergency Plan (OEP) for
all occupants and obtain agreement to the plan from other tenants. Emergency procedures should
be readily available and recognizable to all employees.

Based on General Services Administration (GSA)guidelines and our observations, the building-
wide OEP should:

       a   Provide emergency phone numbers in addition to direct office numbers;
       a   Designate a meeting place away from the building to ensure all occupants have safely
           exited the building;
       a   Include information about the building and its occupants, as well as a floor plan with
           the evacuation routes clearly marked;
       a   Include procedures for an after-hour emergency; and
       a   Ensure all occupants follow procedures when an alarm is sounded.

Finally, the Commission formally should assign Command Center responsibilities and identify
an alternate Command Center site in the event the building must be completely evacuated.

Responses to the draft report clearly reflected the Commission's commitment for safeguarding
lives and property during an emergency. The Commission's Office of Human Resources
proposed taking actions to ensure employees and their families receive benefits support,
employees' emergency contact phone numbers are maintained and available, and an area is
designated for injured employees. Furthermore, the Commission was working towards finalizing
a "shelter in place" plan.


II. BACKGROUND

GSA's March 2002 Occupant Emergency Program Guide defines OEP as a short-term
emergency response program that establishes procedures for safeguarding lives and property


1Observations made by the Office of Inspector General (OIG) during an unscheduled emergency
evacuation drill in July 2002 are provided in Appendix B of this report.

                                                           Office ofInspector General
                                                                u.s. International Trade Commission
Inspection of the U.S. International Trade Commission's                      Inspection Report
Occupant Emergency Program                                                      OIG-IR-O1-03


during an emergency. Every federally leased facility should have one organized plan for all
agencies within that particular facility as well as a Designated Official (DOi responsible for
managing emergencies in the facility.

The Commission shares a GSA leased building with the Social Security Administration (SSA)
and the National Aeronautic and Space Administration (NASA). Located at 500 E Street, SW, in
Washington, DC, and owned and operated by Boston Properties (landlord), the building includes
nine floors and an underground parking garage. The Commission leases the majority of the first
floor' and the third through seventh floors to provide office space for its 365 employees. The
Commission also maintains several hearing rooms on the first floor to conduct business with
non-Commission individuals.

SSA has 128 employees on the eighth and ninth floors; NASA has III contractors on the second
floor.


III. OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of this inspection was to determine if the Commission had an emergency program
to adequately ensure the safety of its employees.

In conducting this inspection from June through December 2002, we reviewed applicable federal
regulations and the GSA OEP Guide, and we evaluated USITC's Directive 3051.0 and
Administrative Notice 3051. We reviewed the OEP for the SSA offices located on the eighth
and ninth floor in the same building as the Commission as well as OEPs for the Federal Election
Commission and the Department of Defense (DoD) located elsewhere. In addition, we
interviewed the Directors of the Office of Administration and Office of Facilities Management.
We observed the Commission's implementation of building evacuation during two fire drills.

The inspection was conducted in accordance with the Quality Standards for Inspections,
promulgated by the President's Council on Integrity and Efficiency.


IV. DETAILS OF RESULTS

A. The Commission Has Made Progress In Managing Emergencies

As the largest agency occupying 500 E Street, SW, Washington, DC, the Commission designated
the positions of DO and Alternate DO to its Directors of the Offices of Administration and


2 The DO is the primary occupant agency's highest ranking official, or designee, by mutual
agreement of all occupant agency ranking officials.
3 A commercial tenant leases a small area on the first floor to operate a food shop.



                                                            Office ofInspector General
                                                                 u.s. International Trade Commission
                                                  2
Inspection of the U.S. International Trade Commission's                        Inspection Report
Occupant Emergency Program                                                        OIG-IR-O1-03


Facilities Management, respectively. To safeguard the building and its occupants, the DO
obtained a physical security assessment of the building, developed an OEP, assigned
responsibilities, and acted to correct identified deficiencies. An overview of the actions is
presented below.

Physical Security Assessment

Biennially, a Federal Protective Service specialist assessed physical security and, when
warranted, recommended improvements at 500 E Street, SW. For the most recent assessment,
completed December 23,2002, the Federal Protective Service had not reported results at the time
of our review. The prior January 6, 1999 assessment report' had discussed building and tenant
security and noted that recommended countermeasures had been implemented.

Occupant Emergency Plan

The Commission's OEP-USITC Directive 3051.0 Emergency Evacuation ofthe Us.
International Trade Commission (November 3, 1994)5-provides emergency evacuation guidance
for ITC employees, contractors and any others occupying USITC leased space. Accordingly, in
an emergency the DO or Alternate DO is to determine the course of action, communicate with
fire department or other appropriate officials, and inform the Chief Warden when it is safe for
people to re-enter the building.

In a building evacuation, the Chief Warden ensures that: the Wardens and their alternates
monitor their areas and follow procedures; designated Wardens assist disabled individuals and
notify the Chief Warden of the location of any disabled individuals requiring other assistance;
and all employees leave the building. The Chief Warden also informs the DO about any
employee not complying with evacuation procedures; assesses the evacuation's efficiency; and
recommends necessary improvements.

The Commission supplemented the OEP by posting the location of first aid kits and evacuation
chairs on the Intranet and providing ready access to medical emergency information and
emergency phone numbers in its hard copy telephone directory.'




4 The assessment was performed in accordance with the Department of Justice's Vulnerability
Assessment ofFederal Facilities, dated June 28, 1995, as well as the Office of Federal Protective
Service's guidance.
5 USITC Directive 3051.0 was updated August 1,2002 to eliminate the building's second floor
emergency evacuation routes because the Commission no longer leased the second floor.
6 The directory included a phone number for the: landlord; building security technical
representative; Federal Protective Service; Kastle Security; police; and Commission's safety
officer.

                                                             Office ofInspector General
                                                                  u.s. lnternational Trade COif/mission
                                                  3
Inspection of the U.S. International Trade Commission's                    Inspection Report
Occupant Emergency Program                                                    OIG-IR-O1-03


Assigned Responsibilities

The DO annually updated USITC Administrative Notice 3051 to apprise Commission employees
of the floor wardens, their alternates, and their assigned locations. For individuals assigned
responsibility in the Notice, the DO provided a printed copy of the Notice and floor diagrams
indicating areas of responsibility (i.e., east wing and west wing).

Correcti ve Action

When a fire drill revealed a communication problem, the Commission and SSA 7 employees
having OEP responsibilities obtained walkie-talkies, which were set on the same frequency.
Similarly, recognizing the need for evacuation chairs, the Commission not only obtained the
chairs but also provided training in their use. Finally, after finding that a new tenant-NASA's
contractors-had not reported to the Chief Warden during an emergency evacuation drill, the
Alternate DO alerted the landlord to resolve the problem. According to the Alternate DO, the
landlord must address this problem because existing emergency policies and regulations do not
apply to contractors.


B. An Official Building-wide OEP Is Needed

The Commission could further enhance its positive actions by leading the effort to establish one
building-wide OEP-necessary to assure that all occupants fully understand emergency
procedures and responsibilities. During the inspection, each agency and the landlord had
separate plans.

The Commission's emergency documents includedf

   o   USITC Directive 3051.0, Emergency Evacuation ofthe USITC - available on lTC's
       Intranet
   o   Procedures To Be Used In Case OfBomb Threat - distributed to all Commission
       employees over 5 years ago
   o   Chemical Attack Procedures - maintained by the DO

The Federal Property Management Regulations placed emergency management responsibility for
a federally leased facility on the DO-the highest-ranking official of the facility's primary
occupant agency or a designee selected by mutual agreement of occupant agency officials (41


7 NASA was not a tenant of 500 E Street, SWat the time the Commission issued the walkie-
talkies.
8 For a more complete list ofOEP related documents on 500 E Street, SW, Washington, DC, its
originator and distribution, see Appendix A.



                                                           Office ofInspector General
                                                                u.s. lniemational Trade Commission
                                                  4
Inspection of the U.S. International Trade Commission's                      Inspection Report
Occupant Emergency Program                                                       OIG-IR-O1-03


CFR 101-20.003(g)). GSA developed the Occupant Emergency Program Guide to help the DO
establish a unified OEP for multiple tenants. According to GSA's guidelines, a facility's OEP
should be entitled "Occupant Emergency Plan for (Name of Facility)." The benefit of having a
standardized title is that it is easily recognizable to any federal employee or agency. Also, the
plan should be signed by the DO, building manager, tenant agencies, and physical security
specialist to certify that they participated in the developing the OEP and fully understand the
procedures.

The Alternate DO said that the landlord and building tenants meet monthly to discuss any issues
concerning the building. Although these meetings have not addressed evacuation procedures,
tenants have in common the building emergency alarm system as well as the same three
stairwells and corresponding exits to evacuate the building. Furthermore, the building security
guards coordinate the three agencies' evacuation and report to the Commission's Chief Warden.
NASA and SSA tenants rely on the lTC's Chief Warden to inform them it is safe to re-enter the
building and generally understood that the ITC is the lead agency.

The current informal understanding does not go far enough to ensure that all occupants know or
will follow procedures. For example, during a recent fire drill, NASA contractors did not report
to the Chief Warden. Absent a building-wide OEP, the Commission cannot assure that all
occupants safely evacuate the building.

Suggestion 1

As DO, the Director, Office of Administration, should take the lead in developing a building-
wide OEP, following GSA's Occupant Emergency Program Guide, addressing various
emergencies. At a minimum, the landlord, representatives from all tenant agencies and a
Physical Security Specialist should participate in its development. Readily available and
recognizable (i.e., titled Occupant Emergency Plan for 500 E Street, SW, Washington, DC), the
building-wide OEP should include each participant's signature acknowledging her or his
understanding of assigned responsibilities.


c.   A Comprehensive OEP Is Needed

To ensure that the building-wide OEP is comprehensive, the Commission should address the
areas discussed below.

Emergency Contact Telephone Numbers

Administrative Notice 3051 and the Commission's telephone directory listed direct office
numbers but did not include key officials' alternate numbers, such as cell phone or pager
numbers. Another agency's plan provided the responsible officials' pager numbers. As key
officials must vacate their workstations in an emergency, office numbers alone are of little use.


                                                            Office of Inspector General
                                                                  u.s. International Trade Commission
                                                  5
Inspection of the U.S. International Trade Commission's                      Inspection Report
Occupant Emergency Program                                                       OIG-IR-O1-03



Designated Meeting Place

By having designated meeting places by manageable work units, occupants would not block
access to emergency help and missing employees would be more readily identified.
Although Directive 3051.0 instructs exiting employees to move to the other side of the E Street,
it provides no further guidance on where groups of employees should assemble and be counted.
During a recent unscheduled drill, many building occupants instead of crossing the street stood
directly in front of the building. In a real emergency, these people could have been in danger of
explosions, flying glass or falling debris. Their presence on the sidewalk outside the building
entrance might also impede firefighters or rescue workers. During the same drill, others crossed
the street but blocked the neighboring Police Station's driveway.

No method was evident for accounting for evacuated building occupants. Without designated
assembly points or head counts, the risk becomes greater that people failing to leave the building
may not be detected in time for rescue. A simple system in which co-workers in a designated
small work unit know each other's whereabouts would be an efficient and effective way to
account for everyone. Missing employees, presumed to still be in the building, could be reported
quickly to the wardens.

Identification of Responsible Officials

The Commission issued easily identified colored hats to the responsible officials, but neither the
Directive nor the Administrative Notice mentions it. Furthermore, during an unscheduled drill,
only 2 of the 20 floor wardens wore a hat. While not everyone may have ready access to the hat
when an alarm sounds, the Commission should stress the importance of wearing the hat. Also,
the identifying factor-colored hat or article of choice-worn by the responsible officials during an
emergency should be addressed in the OEP to apprise everyone of its purpose.

Annually Reviewed Policies and Procedures

The Commission had not performed an annual review of its OEP to determine whether a revision
was needed based on current events, staff and any new laws or policies. The Federal Protective
Service's Facility Evaluation Assessment of the building dated May 28, 1996, recommended that
the OEP be reviewed annually. Our inspection found that the Plan included evacuation
procedures for the second floor, which the Commission no longer occupied, and a rear exit,
which the Commission no longer used. The Commission subsequently deleted reference to the
second floor and rear exit.

Physical Details

The Commission's OEP did not contain: (1) information about the building and its occupants,
and (2) a floor plan with the evacuation routes clearly marked. GSA's guide suggests an OEP


                                                            Office oflnspector·Ceneral
                                                                 u.s. International Trade Commission
                                                  6
Inspection of the U.S. International Trade Commission's                         Inspection Report
Occupant Emergency Program                                                         OIG-IR-O1-03


contains these details. Although the current United States International Trade Commission
Telephone Directory includes floor plan diagrams of space the Commission occupies with the
location of each working area clearly marked, the floor plan diagrams do not show evacuation
routes. While we recognize that the area and stairs outside of the Commission's suites are
marked at the elevators and exit signs are clearly displayed, a revised diagram provided in the
directory that displays the location of exits, stairs and evacuation routes could reduce confusion
in the event of an emergency and aid occupants in exiting the suites.

After-Hour Emergency

The Commission's OEP did not include procedures for after-hour emergencies. According to the
Alternate DO, the Commission's contingency plan addresses after-hour emergency procedures.
The Chairman will decide when to resume business and alert the Director, Office of
Administration, to take appropriate action. However, the contingency plan's focus was on
resuming business operations in general and not on permitting entry into the building.

In DoD's Plan, the DO will be notified of an after-hour emergency and subsequently will
determine whether to delay admittance or close the building. Moreover, the DO will notify the
Public Affairs/Information Office Representative who will in tum, notify the news media in
accordance with prearranged procedures made between the DO and the news media. DoD's Plan
also provides a list of radio stations that will broadcast information concerning delayed
admittance or building closure.

Compliance with Procedures

Not all employees followed procedures and evacuated the building when an alarm sounded. One
senior staff member, not taking the alarm seriously, called the Alternate DO asking to be notified
of whether an alarm is real or a drill. According to the Alternate DO, employees often call when
an alarm sounds to determine if there is a real emergency. The Alternate further stated that many
times even he does not know if it is real or a drill and is too busy fulfilling his responsibilities as
Alternate DO to answer the phone.

To encourage full participation every time the alarm sounds, employees need to be reminded to
never assume an alarm is false. Directive 3051.0 instructs employees to take seriously all alarms
and never assume an alarm is false. Failure to follow procedures-whether for an actual
emergency or a practice drill-could put self, fellow employees and rescuers in danger. On the
other hand, cooperative employees not only ensure workplace safety but also help identify
needed improvements in the evacuation process.

For each evacuation, the Alternate DO filed a report recording the total time for the evacuation,
designated areas that reported all their charges had exited the building and problems encountered.
To identify employees exhibiting patterns of noncompliance, the Alternate DO's report could



                                                              Office a/Inspector General
                                                                    u.s. international Trade Commission
                                                   7
Inspection of the U.S. International Trade Commission's                     Inspection Report
Occupant Emergency Program                                                     OIG-IR-O1-03


include a list of those employees who ignored the alarm. Rather than filing the report, the
Alternate DO could provide the report to the Chairman, Vice Chairman and the Senior Staff.

Building Security Committee

Although emails sent on August 6, 2002 between the DO and Alternate DO suggest replacing
members on the Commission's Building Security Committee, such a Committee was not
referenced in Commission documents. If such a Committee either exists or is to be, the
Commission would need to formally define the Committee's duties and assign its members.

Suggestion 2

As DO, the Director, Office of Administration, should incorporate the following into a building-
wide OEP:

       a. Provide emergency phone numbers in addition to the direct office or workstation
          numbers of key employees.
       b. Designate a meeting place for each manageable work unit away from the building to
          ensure all occupants have safely exited the building.
       c. Establish a system in which work unit employees are aware of their co-workers'
          whereabouts and will alert wardens to employees thought to still be in the building.
       d. Include in the OEP the identifying article of clothing-colored armband or hat-worn
          by the responsible officials during an emergency, and stress the importance of
          wearing the article.
       e. Review the OEP at least yearly to determine whether a revision is needed based on
          the current events, staff and any new laws or policies.
       f Include information about the building and its occupants, as well as a floor plan with
          the evacuation routes clearly marked as suggested in GSA's guide. Also, the
          Commission should revise the floor plan diagrams of space it occupies to clearly
          indicate the location of exits, stairs and evacuation routes in the United States
          International Trade Commission Telephone Directory.
       g. Include procedures for an after-hour emergency.
       h. Formally define the duties and assign individuals to the Commission's Building
          Security Committee.:

Suggestion 3

As DO, the Director, Office of Administration, should remind employees that everyone is
required to take seriously all alarms and follow procedures. Also, the Alternate DO should
modify the drill report to include the name of each non-participant. This report should be
forwarded to the Chairman, Vice Chairman, and Senior Staff for appropriate action.




                                                          Office oflnspector General
                                                                u.s. International Trade Commission
                                                  8
Inspection of the U.S. International Trade Commission's                        Inspection Report
Occupant Emergency Program                                                        OIG-IR-O1-03


D. Command Center Policies And Procedures Should Be Strengthened And Formalized

Neither the Directive nor Administrative Notice mentions a Command Center and a Command
Center Team. The Commission informally created a Command Center at the security guards'
desk in the front lobby of the building, but did not identify an alternate site if the main Center is
damaged. Additionally, the Commission had not created a process or assigned responsibilities to
relay important information to the building's occupants when in non-evacuation status.

A Command Center where emergency operations are conducted should be centrally located and
easily accessible for effective communication and control. GSA's Guide also suggested that the
Commend Center have good communications capability, including at least two telephones,
portable radios and pagers, and messengers should be available to augment communication.

The present Command Center was equipped with the two telephones and access to the alarm
system. Key emergency personnel had radios and the Chief Warden had a bullhorn. The
Commission's Directive assigned communication responsibilities when the building is in
evacuation status, but there were no procedures for communicating vital information when the
current Command Center is inoperable and when there is a need for occupants to remain in the
building or relocate within the building.

Because of the Command Center's essential coordinating role, an alternate Command Center is
necessary in the event that a building emergency shuts down the Command Center. The
Commission had not established an alternate Command Center.

The Command Center Team is responsible for directing all emergency operations from the
Command Center. GSA's Guide suggests that for a small facility the Command Center Team
should consist of the DO, an Occupant Emergency Coordinator, a Damage Control Team
Coordinator, and Technical Advisors. The Commission's Command Center Team consisted of
the DO, the Alternate DO, and the Chief Warden.

Suggestion 4

As DO, the Director, Office of Administration, should formally establish the location of the main
Command Center and identify an alternate location in the event the primary location is
incapacitated. Also, the DO should ensure the Command Center Team is made up of key
individuals with formally assigned responsibilities. The DO should develop procedures to ensure
vital information is communicated to all occupants and emergency officials under evacuation and
non-evacuation emergency situations. All of these actions should be made part of the building-
wide OEP.




                                                             Office ofInspector General
                                                                   u.s. International Trade Commission
                                                  9
                                                                                              APPENDIX A
Inspection of the U.S. International Trade Commission's                                    Inspection Report
Occupant Emergency Program                                                                    OIG-IR-O1-03


             OCCUP ANT EMERGENCY PROCEDURES AND RESPONSIBILITIES FOR
                        . 500 E STREET SW, WASHINGTON, DC

 Originator                   Document                               Purpose                        Distribution
Commission      USITC Directive 3051.0, Emergency        Provides evacuation guidance       USITC intranet (internal
                Evacuation ofthe USITC                   to Commission employees            access)
Commission      USITC Administration Notice 3051,        Assigns responsibility to          USITC intranet (internal
                Emergency Evacuation ofthe U.S.          Commission employees when          access)
                International Trade Commission           evacuating the building
Commission      Diagram of Commission occupied           Ensures wardens are aware of       Commission Floor
                floors with designated areas of          their area of responsibility       Wardens
                responsibility (i.e., east and west
                winz),
Commission      United States International Trade        Quick reference to emergency       Internal distribution
                Commission Telephone Directory           phone numbers and medical
                                                         emergency procedures.
Commission      List of first aid kits and location of   Identifies individuals assigned    USITC intranet (internal
                wheelchairs                              a first aid kit by location and    access)
                                                         location of wheelchairs.
Commission      Procedures To Be Used In Case Of         Bomb threat procedures             Handout provided to all
                Bomb Threat                                                                 Commission employees
                                                                                            over 5 years ago.
Commission      Chemical attack procedures               Procedures in the event of a       DO and Alternate DO
                                                         chemical attack
SSA             Emergency Management/Civil               Emergency guidance                 SSA agency-wide manual
                Defense
SSA             Emergency Evacuation Information         Building specific evacuation       Handout provided to SSA
                                                         procedures. Assigned               employees occupying 500
                                                         wardens and evacuation chair       E Street, SW, Washington,
                                                         monitors; identified the color     DC
                                                         of hats to be worn by SSA's
                                                         wardens for easy
                                                         identification; supplied
                                                         emergency office and pager
                                                         phone numbers; and provided
                                                         a detailed floor plan with
                                                         arrows indicating the direction
                                                         to follow when exiting the
                                                         building. Additionally, the
                                                         guidance advised SSA
                                                         employees to re-enter the
                                                         building when the ITC Chief
                                                         Warden indicates.
NASA            Health and Safety manual                 An evacuation plan                 Unknown
Boston          Tenant Information Booklet               Contains bomb threat and fire      New tenants
Properties                                               emergency procedures.




                                                                       Office ofInspector General
                                                                              u.s. International Trade Commission
                                                         10
                                                                                        APPENDIX A
Inspection of the U.S. International Trade Commission's                              Inspection Report
Occupant Emergency Program                                                              OIG-IR-OI-03


             OCCUPANT EMERGENCY PROCEDURES AND RESPONSIBILITIES FOR
                         500 E STREET SW, WASHINGTON, DC


 Originator                  Document                           Purpose                     Distribution
Boston          Independence Square Emergency      Provides action steps that         New tenants
Properties      Procedures Manual, also known as   should be taken by the
                the Landlord's Handbook            landlord and tenants in the
                                                   event of specific situations
                                                   such as fire, bomb threat,
                                                   medical emergency, natural
                                                   disaster, civil disturbance
                                                   procedures.
Boston          Fire Alarm Procedures              Describes the landlords' role      New tenants
Properties                                         when an alarm sounds.
Boston          Emergency Recovery Contingency     Describes what the landlord        New tenants
Properties      Plan                               will do in the event of a
                                                   mechanical outage - electric,
                                                   water, HVAC, heat, etc.
Boston          Building Questionnaire             Contains building                  All tenants and GSA when
Properties                                         specifications and identifies      there is a change in either
                                                   responsible officials.             specifications or staff.
Boston          Handout addressing the Damage      The landlord accepts               New tenants
Properties      Control Coordinator                responsibility to: alert Kastle
                                                   Security to unlocked all doors
                                                   for an expeditious exit out of
                                                   the building; assist in safely
                                                   evacuating people out of the
                                                   building; verify the cause of
                                                   an alarm and monitor the
                                                   phone for updates on the
                                                   emergency; update arriving
                                                   firemen if smoke or fire is
                                                   found and clear building
                                                   access for the firemen and
                                                   equipment; and reset elevators
                                                   and alarms and notify the
                                                   security guards that it is safe
                                                   to enter the building.




                                                                 Office ofInspector General
                                                                        u.s. lnternational Trade Commission
                                                   11
                                                                                 APPENDIXB
Inspection of the U.S. International Trade Commission's                       Inspection Report
Occupant Emergency Program                                                        OIG-IR-O 1-03


         010 OBSERVATIONS DURING THE JULY 2002 EVACUATION DRILL AT
                      500 E STREET SW, WASHINGTON, DC


During the July 24,2002 unscheduled evacuation, OIG staff observed that the building occupants
immediately began to exit the building at the sound of the alarm. After approximately eight to
ten minutes, no other building occupants were seen exiting the building. The following areas
were conducted appropriately:

    o   The occupants that were seen exiting the building did so in a quick and orderly manner.

    o   The security guards assisted by directing traffic on E Street, SW so that the building
        occupants could cross the street.

   o    The security guards also checked identification badges as the staff re-entered the building.

   o    The Command Center Team maintained their positions to offer assistance.

   o    While exiting the building, OIG staff tested a secured door to verify that the Kastle Key
        was deactivated.

   o    The Chief Warden announced when it was safe to re-enter the building.




                                                             Q[fice of Inspector General
                                                                  u.s. international Trade Commission
                                                  12
